No. ___________

In the

Supreme Court of the United States
HARRIS COUNTY, TEXAS
Petitioner,
v.
PRSI TRADING, LLC
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME COURT OF TEXAS
PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
I, Bernardino Agosto, Jr., counsel of record for Petitioner Harris County,
Texas, and a member of the Bar of this Court, hereby certify that on the 26th
day of October, 2020, I caused to be served an electronic copy of the Petition
for a Writ of Certiorari in the above-referenced case by email to counsel listed
below:

James B. Harris
Stephen F. Fink
Richard B. Phillips, Jr.
THOMPSON & KNIGHT LLP
One Arts Plaza
1722 Routh Street, Suite 1500
Dallas, Texas 75201
james.haris@tklaw.com

Electronic service is made in accordance with Supreme Court Rule 29.3.
Pursuant to the Court’s April 15, 2020 Order regarding filing relating to
COVID-19, the parties have agreed to electronic service and are relieved of the
obligation to serve paper versions of filings.
I further certify that all parties required to be served have been served.

By: /s/ Bernardino Agosto, Jr.
Bernardino Agosto, Jr.
ABRAHAM, WATKINS, NICHOLS,
SORRELS, AGOSTO, AZIZ & STOGNER
800 Commerce Street
Houston, TX 77002
713-222-7211
bagosto@awtxlaw.com
Counsel for Petitioner

